March 29, 2002

ANITA J. BIZZOTTO
CHIEF MARKETING OFFICER

SUBJECT: 	Audit Report – The Role of Marketing in the Postal Service
          (Report Number EM-AR-02-007)

This report presents the results of our audit of the role of Marketing in the Postal Service
(Project Number 00RR009RG000). The audit was self-initiated. Our overall objective
was to evaluate how effective the Marketing Office was in assisting the Postal Service in
maintaining its competitive position in the market and increasing revenue.

We were not able to fully evaluate the impact of the Postal Service Marketing Office on
the Postal Service competitive position and revenue. The evaluation was limited
because a consolidated marketing plan had not been developed since fiscal year 2000
and a system for measuring the effectiveness of advertising campaigns needed
improvement. We recommended Postal Service officials develop an integrated
marketing plan that is linked to the Postal Service’s Strategic Plan, establish
measurable advertising objectives and adequate benchmarks prior to the start of their
advertising campaigns, and reevaluate targeted advertising campaigns that do not
generate revenue as planned. Management agreed with our recommendations and has
planned corrective actions addressing the issues identified in this report.
Management’s comments and our evaluation of these comments are included in this
report.

The Office of Inspector (OIG) considers recommendations 1, 2, and 3 significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you or have any questions or need additional information, please contact Robert J.
Batta, director, eCommerce and Marketing, at (703) 248-2100, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment

cc: 	Larry M. Speakes
    John R. Wargo
    Susan M. Duchek
The Role of Marketing in the Postal Service                            EM-AR-02-007



                                     TABLE OF CONTENTS
 Executive Summary                                                           i


 Part I

 Introduction                                                               1


     Background                                                             1

     Objectives, Scope, and Methodology                                     2

     Prior Audit Coverage                                                   3


 Part II

 Audit Results                                                              4


     Lack of a Marketing Plan Supporting Strategic Goals in FY 2001         4

     Recommendation                                                         4

     Management’s Comments                                                  5

     Evaluation of Management’s Comments                                    5


     Effectiveness of Advertising on Awareness Not Measured                 6

     Recommendations                                                        8

     Management’s Comments                                                  8

     Evaluation of Management’s Comments                                    9


     Effectiveness of Advertising on Revenue Not Measured                  10

     Recommendation                                                        11

     Management’s Comments                                                 11

     Evaluation of Management’s Comments                                   11


 Appendix A. Marketing Budget for FY 2000 and FY 2001                      12


 Appendix B. Management’s Comments                                         13





                                              Restricted Information
The Role of Marketing in the Postal Service	                                          EM-AR-02-007



                                    EXECUTIVE SUMMARY
 Introduction	                   The audit was self-initiated and evaluated the Marketing
                                 Office’s role in assisting the Postal Service in maintaining its
                                 competitive position in the market and increasing revenue.
                                 Specifically, our objectives were to determine whether the
                                 Marketing Office: (1) supported strategic goals, (2) used
                                 performance measures to evaluate the effectiveness of
                                 advertising initiatives, and (3) focused advertising on
                                 generating revenue for the Postal Service.

 Results in Brief                We were not able to fully evaluate the impact of the
                                 Marketing Office in assisting the Postal Service to maintain
                                 its competitive position in the market and increase revenue.
                                 Specifically, an overall marketing plan outlining marketing
                                 strategies, tactics, and initiatives related to the Postal
                                 Service strategic plan had not been developed since fiscal
                                 year (FY) 2000. Instead, marketing strategies were based
                                 on individual business plans or briefing presentations
                                 developed by departments within the Marketing Office.

                                 We also determined that the system used to measure the
                                 effectiveness of the Postal Service advertising campaigns
                                 needed improvement. For instance, the Postal Service had
                                 not established specific measurable objectives for the
                                 advertising message they wanted to convey. Even though
                                 the Postal Service measured customer recognition and
                                 brand awareness for commercials that were shown during
                                 advertising campaigns, benchmarks were not established
                                 for each advertising objective before the start of their
                                 campaigns. As a result, the Postal Service was unable to
                                 measure the level of change advertising campaigns had on
                                 customer awareness, knowledge, or attitudes.

                                 Furthermore, the measurement system used to evaluate the
                                 effect of targeted advertising campaigns on increasing
                                 revenue needed improvement. Specifically, we determined

                                 that in FY 2000 about                  was spent on
                                 targeted advertising campaigns designed to generate sales
                                 leads and product orders; however, these initiatives only

                                 generated 	                        .

 Summary of                      We recommended management develop an integrated
 Recommendations                 marketing plan that is linked to the Postal Service’s

                                                      i
                                           Restricted Information
The Role of Marketing in the Postal Service                                         EM-AR-02-007



                                 Strategic Plan and include performance measures to assess
                                 the effectiveness of the marketing plan. We also
                                 recommended that officials establish measurable
                                 advertising objectives prior to the start of their advertising
                                 campaigns and establish benchmarks for each objective
                                 prior to beginning advertising campaigns. Finally, we
                                 recommended that officials reevaluate the use of targeted
                                 advertising campaigns that do not generate enough revenue
                                 to cover advertising expenses.

 Summary of                      Management agreed with our findings and
 Management’s                    recommendations. Management plans to develop an
 Comments                        integrated marketing plan for FY 2003, which will include
                                 explicit metrics and assigned accountabilities. In addition,
                                 management has initiated actions to measure print
                                 advertising and to improve their advertising research
                                 questionnaire design. Management also plans to include
                                 pre-campaign research to their advertising research
                                 contract and plans to continue to evaluate the measured
                                 results of all their advertising. When measured results
                                 demonstrates performance below objectives, a
                                 management team will consider appropriate actions,
                                 including closing and/or modifying campaigns.
                                 Management’s comments, in their entirety, are included in
                                 Appendix B of this report.

 Overall Evaluation of           Management’s comments are responsive to our findings
 Management’s                    and recommendations.
 Comments




                                                         ii
                                              Restricted Information
The Role of Marketing in the Postal Service	                                                          EM-AR-02-007



                                             INTRODUCTION
    Background	                    The Postal Service’s Marketing Office was composed of
                                   seven major departments at the time of our review:1

                                        •	   Advertising and Promotion
                                        •	   Retail Consumer and Small Business
                                        •	   Marketing Technology and Channel Management
                                        •	   International Business Unit
                                        •	   Core Business Marketing
                                        •	   Strategic Marketing
                                        •	   Pricing and Product Design

                                   The Advertising and Promotion department is responsible
                                   for developing and managing the corporate advertising
                                   budget. All other departments build core products, develop
                                   growth markets, and leverage the retail infrastructure to
                                   accomplish the Marketing Office’s goals.

                                    In fiscal years (FY) 2000 and 2001 the Marketing Office
                                    expended over $1.4 billion. Almost $1 billion or 70 percent
                                    of these expenditures were for the Point of Service ONE
                                    Program, the Corporate Call Management Program, and
                                    advertising and promotion of Postal Service products and
                                    services. The balance of about $400 million was spent on
                                    additional marketing programs, salaries, and administration
                                    support costs. See Appendix A for a listing of the Marketing
                                    departments and their respective budgets for FYs 2000 and
                                    2001.

                                   In May 2000, the former chief marketing officer2 presented
                                   his marketing vision in a briefing to the deputy postmaster
                                   general. He defined the role of Marketing within the Postal
                                   Service as:

                                        •	 Designing products and features to grow customers
                                           and revenue.

                                        •	 Pricing products to retain and grow key customer
                                           segments and revenue streams.




1
  The Marketing Office was reorganized prior to the issuance of this report, and is now composed of International
Business, Service and Market Development, Product Development, Pricing and Classification, and Sales.
2
  A new chief marketing officer was appointed on September 2001 as part of a reorganization of the Marketing Office.

                                                         1
                                              Restricted Information
The Role of Marketing in the Postal Service	                                                        EM-AR-02-007




                                       •	 Promoting the Postal Service brand to build
                                          awareness, consideration, purchases, and loyalty.

                                       •	 Making services available at places customers
                                          choose to do business.

    Objectives, Scope,            Our overall objective was to evaluate the role of Marketing
    and Methodology               in assisting the Postal Service to maintain its competitive
                                  position in the market and increase revenue. Specifically
                                  our objectives were to determine whether the Marketing
                                  Office: (1) supported strategic goals, (2) used performance
                                  measures to evaluate the effectiveness of advertising
                                  initiatives, and (3) focused advertising to generate revenue
                                  for the Postal Service.

                                  To determine whether a marketing plan supported Postal
                                  Service strategic goals, we interviewed the vice presidents
                                  and their managers from all of the Marketing departments.
                                  We examined Postal Service planning documents to include
                                  the Postal Service 2001-2005 Strategic Plan, FY 1999/2000
                                  Marketing Plan, and each of the marketing department’s
                                  business plans and briefing charts. In addition, we reviewed
                                  two Marketing studies that identified ways to improve the
                                  Postal Service’s Marketing Office.

                                  To assess advertising performance measures, we
                                  interviewed directors and managers within the Marketing
                                  Office and reviewed procedures used to evaluate the
                                  effectiveness of programs and initiatives. We obtained
                                  report cards of each targeted campaign, analysis reports
                                  from Tracker,3 market research studies from Market Tracks,
                                  sales leads and responders from the Sales Management
                                  and Revenue Tracking System4 and reference material from
                                  the Association of National Advertisers on “Defining
                                  Advertising Goals for Measured Advertising Results.”

                                  To determine the focus of advertising efforts on generating
                                  revenue, we reviewed budget reports and revenue figures
                                  from Postal Service officials.



3
  Tracker is the Advertising and Promotions database that stores marketing campaign analysis, report cards, tasked
amounts, invoices, and responders.
4
  The Sales Management and Revenue Tracking System is the Sales department’s sales leads, campaign responder
status, and sales revenue tracking system.

                                                        2
                                             Restricted Information
The Role of Marketing in the Postal Service                                          EM-AR-02-007




                                 This audit was conducted from May 2000 through
                                 March 2002 in accordance with generally accepted
                                 government auditing standards, and included such tests of
                                 internal controls as were considered necessary under the
                                 circumstances. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

 Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                 objectives of this audit.




                                                         3
                                              Restricted Information
The Role of Marketing in the Postal Service	                                          EM-AR-02-007



                                         AUDIT RESULTS
 Lack of a Marketing             An overall integrated marketing plan had not been
 Plan Supporting                 developed since FY 2000. Marketing strategies were based
 Strategic Goals in              on individual business plans or briefing presentations
 FY 2001                         developed by departments within the Marketing Office. The
                                 importance of an overall marketing plan and the need for a
                                 5-year marketing plan to ensure marketing strategies,
                                 tactics, and initiatives were aligned with Postal Service
                                 strategic goals was identified in a 1998 Postal Service
                                 sponsored study entitled, “Enhancing USPS Marketing
                                 Initiatives.”

                                 Marketing officials said they preferred to document their
                                 marketing strategies in briefings to management. The
                                 former chief marketing officer identified his general
                                 strategies for increasing net income in his briefings to
                                 management and through internal marketing meetings. His
                                 strategies were to retain core markets and customers as a
                                 foundation for growth, to grow by targeting key segments,
                                 and to leverage the retail infrastructure. In this regard, we
                                 noted that two of the seven major Marketing departments
                                 had prepared formalized business plans that identified
                                 specific tactics or initiatives for increasing revenue. The
                                 remaining five departments identified their tactics and
                                 initiatives in either briefing presentations or web-based tools
                                 prepared for management.

                                 However, in September 2001 the Marketing Office was
                                 reorganized and a new chief marketing officer was assigned.
                                 The new chief marketing officer agreed that an integrated
                                 marketing plan was needed and a preferred method for
                                 ensuring marketing initiatives are focused on the Postal
                                 Service’s strategic goals. As a result, the Marketing Office
                                 began to develop new integrated business plans during the
                                 course of the audit. Marketing officials indicated that new
                                 integrated marketing plans would ensure that marketing
                                 initiatives were aligned with Postal Service strategic goals.

 Recommendation                  We recommend the chief marketing officer:

                                     1.	 Develop an overall marketing plan that identifies
                                         specific marketing goals, objectives and tactics, and
                                         strategies linked to the Postal Service’s strategic and
                                         annual performance plans, including performance
                                         indicators that can be used to measure and assess

                                                      4
                                           Restricted Information
The Role of Marketing in the Postal Service                                         EM-AR-02-007



                                         the outcome of each of the Marketing Office’s
                                         initiatives.

 Management’s                   Management agreed with the recommendation.
 Comments                       Management stated they would develop an integrated
                                marketing plan for FY 2003, which will include explicit
                                metrics and assigned accountabilities. The marketing
                                planning process will be built upon the integration of the
                                segment, channel, and product groups to strengthen the
                                customer and market focus of strategies in the plan.
                                Management will continue to evaluate the results of all its
                                initiatives. When results, as measured by program
                                analyses, research, the sales leads tracking measurement,
                                and internal revenue systems, demonstrate performance
                                below objectives; marketing’s management team will
                                consider the appropriate actions, including closing down
                                campaigns and/or modifying campaigns.

 Evaluation of                  Management’s planned actions to the recommendation are
 Management’s                   responsive and meet the intent of our recommendation.
 Comments




                                                         5
                                              Restricted Information
The Role of Marketing in the Postal Service	                                             EM-AR-02-007




 Effectiveness of                The Postal Service’s measurement system for television and
 Advertising on                  print advertising campaigns needed improvement. Postal
 Awareness Not                   Service officials did not establish complete measurable
 Measured                        advertising objectives prior to the start of their advertising
                                 campaigns. The Postal Service measured the level of
                                 customer recognition and brand awareness for commercials
                                 shown during advertising campaigns. However, they did not
                                 identify the number of people that were already aware of the
                                 entire message they wanted to deliver prior to the beginning
                                 of the campaign.

 Television Advertising          According to the Association of National Advertisers, in
 Campaigns                       order to effectively assess the value of advertising, an
                                 advertising objective should be specific and communicate a
                                 specific task that is to be accomplished to a given degree
                                 among a defined audience over a designated period of time.
                                 We found that the objectives listed by the Postal Service
                                 Advertising and Promotion department were too broad and
                                 general to assess the value of advertising. For example,
                                 Priority Mail was the most heavily advertised Postal Service

                                 product on television, with more than
                                 spent on television commercials. The Priority Mail campaign
                                 was designed to position the Postal Service as the shipper
                                 of choice for on-line purchases from the household. Postal
                                 Service officials listed their specific advertising objectives as:

                                     •	 To enhance Priority Mail’s association with 

                                        eCommerce.


                                     •	 To improve Priority Mail’s e-image.

                                     •	 To encourage e-shoppers to request Priority Mail by
                                        stressing value in having:

                                               -   A lower price alternative.

                                               -   The ability to choose their online shipper.





                                                      6
                                           Restricted Information
The Role of Marketing in the Postal Service	                                             EM-AR-02-007




                                     •	 To promote the benefits to e-shoppers and e-sellers
                                        by:

                                               -   Extending Priority Mail’s current value
                                                   proposition to the Internet.

                                               -   Strengthening perceptions of reliability, a
                                                   barrier it faces between both audiences.

                                 Using criteria established by the Association of National
                                 Advertisers, for example, these objectives could have been
                                 more effective if stated as:

                                     •	 Raise the number of e-shoppers who were aware that
                                        Priority Mail was a shipping alternative from

                                                              over the next year.

                                     •   Raise the perception of Priority Mail as an excellent
                                         or good shipping method for e-shoppers from

                                                              by the end of the year.

                                     •   Increase awareness that Priority Mail is a less

                                         expensive shipping method from                          to

                                                              within 6 months.

                                 To determine if their advertising campaigns were successful
                                 the Marketing Office established measures that were
                                 designed to determine the recognition and brand awareness
                                 of target audiences during advertising campaigns. For
                                 example, Postal Service assessments of the Priority Mail
                                 campaign indicated that audiences were increasingly aware
                                 that Priority Mail was associated with Internet shipping;
                                 however, assessments also showed the awareness levels
                                 were increasing at the same rate for Postal Service’s
                                 competitors. However, since benchmarks had not been
                                 established to identify the number of people who were
                                 already aware of the entire advertising message prior to the
                                 beginning of a campaign, the Postal Service was unable to
                                 determine whether increases in awareness were the result
                                 of the advertising campaign or other factors.



                                                      7
                                           Restricted Information
The Role of Marketing in the Postal Service                                          EM-AR-02-007



 Print Advertising              In addition to television campaigns the Advertising and
 Campaigns                      Promotion department also used print advertising in their
                                FY 2000 campaigns. Print advertising included ads for
                                Postal Service products placed in magazines, newspapers,

                                and trade publications. There were

                                advertisement insertions placed in
                                different publications in FY 2000. We found, however, that
                                no attempt was made to measure the effectiveness of these
                                print advertisements.

                                For example, the Advertising and Promotion department

                                spent about                    advertising on print media for
                                eBillPay during FY 2000. The objective of the campaign
                                was to generate product awareness, new product orders,
                                and to drive the target audience to the Postal Service’s web
                                site, USPS.com. The Advertising and Promotion
                                department‘s assessment of the advertising campaign
                                consisted of determining whether the placement of the ads
                                within the publications were in accordance with contract
                                specifications. There was no attempt to measure the
                                effectiveness of the print advertising against a target
                                audience. As a result, Postal Service officials expanded
                                their advertising measurement program to cover print
                                advertising in FY 2001.

                                While we understand that advertising is one factor of a
                                marketing strategy and that there are many variables that
                                affect whether a consumer buys a product or service, it is
                                imperative that officials measure the effectiveness of their
                                advertising campaigns to ensure that marketing funds are
                                spent as effectively as possible to achieve Postal Service
                                objectives.


 Recommendation                 We recommend the chief marketing officer:

                                    2. Identify specific measurable advertising objectives
                                       that define what is to be achieved prior to the start of
                                       a campaign.

 Management’s                   Management agreed with the recommendation.
 Comments                       Management stated they have taken steps to improve the
                                measurement of the effectiveness of advertising through its

                                                         8
                                              Restricted Information
The Role of Marketing in the Postal Service	                                         EM-AR-02-007



                                 contract with Millward Brown, an advertising research
                                 company. In the past year, management has improved the
                                 advertising research program by aligning more effectively
                                 the ongoing tracking with the advertising media plan, by
                                 adding a capability to measure print advertising, and by
                                 improving the questionnaire design. Management is
                                 undertaking a new solicitation for its contract for the
                                 advertising effectiveness, and as part of this will expand the
                                 contract to include pre-campaign research to help develop
                                 the advertising strategies and creative development.

 Recommendation                      3.	 Establish a baseline relevant to advertising objectives
                                         prior to the beginning of the campaign and compare
                                         the results at the end.

 Management’s                    Management agreed with the recommendation.
 Comments                        Management stated that through the use of the
                                 Millward Brown advertising measurement program they
                                 conduct ongoing tracking of their advertising so that they
                                 can develop pre and post campaign measurements of the
                                 various ads being run throughout the year. Using this
                                 approach, management will be able to measure changes in
                                 results, to evaluate accomplishment of the type of objectives
                                 noted as part of recommendation number 2.

 Evaluation of                   Management’s planned actions for recommendations 2 and
 Management’s                    3 are responsive and meet the intent of our
 Comments                        recommendations.




                                                      9
                                           Restricted Information
The Role of Marketing in the Postal Service                                                               EM-AR-02-007




    Effectiveness of                 The measurement system used to evaluate the
    Advertising on                   effectiveness of the Postal Service targeted advertising
    Revenue Not                      campaigns on increasing revenue needed improvement.
    Measured                         This occurred because Postal Service officials did not
                                     attempt to analyze their advertising campaigns to determine
                                     if they generated enough revenue to cover advertising
                                     expenses. As a result, the Postal Service may continue to
                                     spend advertising dollars on targeted campaigns that are
                                     ineffective.

    Targeted Advertising 

    Expenses Exceeds                 In FY 2000, the Postal Service spent 

    Revenue

                                                       of their Advertising and Promotion budget
                                     on targeted advertising campaigns designed to generate
                                     sales leads and product orders. However, our analysis
                                     found that these targeted advertising campaigns only

                                     generated about                    in revenue during FY
                                     2000. Targeted campaigns included direct mail, emails,
                                     Internet and print advertisements, and outbound
                                     telemarketing that were targeted to individual businesses
                                     and consumers. By targeting specific individuals, the
                                     Advertising and Promotion department had, in some cases,
                                     been able to identify revenue generated from these
                                     campaigns. However, the Postal Service did not analyze
                                     this information to determine whether these campaigns were
                                     successful.


                                     For example, of the                                , the Advertising and

                                     Promotion department spent more than                  on
                                     seven targeted campaigns for Postal Service products
                                     during FY 2000. These targeted campaigns attempted to
                                     generate sales leads for Expedited Package Services,
                                     Global Delivery Service, and Standard Mail A.

                                     Approximately                 individual consumers and
                                     businesses were targeted. However, according to the Sales
                                     department, none of these campaigns had generated any
                                     revenue5 as of July 1, 2001.

                                     In addition, the Advertising and Promotion department spent
5
    Only 69 leads generated through targeted advertising were still pending with potential to create sales.

                                                           10
                                                 Restricted Information
The Role of Marketing in the Postal Service	                                        EM-AR-02-007




                                 about                  to develop orders for Small
                                 Office/Home Office/Residential Bundled Product Wave in FY
                                 2000. The bundled product wave was a direct mail offering
                                 used to advertise stamps by mail along with a variety of
                                 other products. The Advertising and Promotion department

                                 was only able to identify approximately                   in
                                 revenue that resulted from this campaign. Additional
                                 revenue may have been realized; however, product sales
                                 were not tracked for several of the products offered during
                                 the campaign and was not included in the overall revenue
                                 numbers.

 Recommendation                  We recommend the chief marketing officer:

                                     4.	 Reevaluate the value of using targeted advertising
                                         campaigns that do not generate enough revenue to
                                         cover advertising expenses.

 Management’s                    Management agreed with the recommendation.
 Comments                        Management stated they will continue to evaluate the results
                                 of all its advertising. When results, as measured by the
                                 advertising effectiveness research, the sales leads tracking
                                 measurement, and their internal revenue systems,
                                 demonstrate performance below objectives; management
                                 will consider appropriate actions, including closing down
                                 campaigns and/or modifying campaigns.

 Evaluation of                   Management’s planned actions to the recommendation are
 Management’s                    responsive and meet the intent of our recommendation.
 Comments




                                                     11
                                           Restricted Information
The Role of Marketing in the Postal Service                                                           EM-AR-02-007




                                                APPENDIX A

                 MARKETING BUDGET FOR FY 2000 AND FY 2001
The following chart shows the capital and expense expenditures for individual
departments within the Marketing Office:

                                                Marketing Budget
                                                  (in millions)
                                                                FY 2000               FY 2001
Marketing Departments                                            Actual                Actual

Retail, Consumers and Small Business6                                $523.1             $254.0


Marketing Technology and Channel Management7                         $159.4              $32.5
International Business Unit                                           $32.4              $24.3
Core Business Marketing                                               $13.8              $27.2
Chief Marketing Officer8                                               $7.9               $0.4
Strategic Marketing                                                    $7.5               $5.7
Pricing and Product Design                                             $7.4               $9.6
Performance Analysis and Support9                                      $6.4
Marketing Integration10                                                $2.4
Total                                                                $920.6             $500.2




6
  Part of the FY 2001 budget reductions were a result of decreases in Point of Service ONE Program costs
($257 million).
7
  Most of the FY 2001 budget reductions were the result of transferring the Corporate Call Management Program
($129 million) to the Office of the Consumer Advocate.
8
  The chief marketing officer incurred one-time expenses to relocate the Marketing Office from Washington, D.C., to
Rosslyn, Virginia.
9
  The FY 2001 Performance Analysis and Support budget was included as part of Core Business Marketing.
10
   The FY 2001 Marketing Integration budget was included as part of Core Business Marketing.




                                                        12
                                              Restricted Information
The Role of Marketing in the Postal Service                            EM-AR-02-007



                    APPENDIX B. MANAGEMENTS COMMENTS




                                                        13
                                              Restricted Information
The Role of Marketing in the Postal Service                            EM-AR-02-007




                                                        14
                                              Restricted Information
The Role of Marketing in the Postal Service                            EM-AR-02-007




                                                        15
                                              Restricted Information
